TX

C@OCKLE

2311 Douglas Street Le ga 1 Br iefs E-Mail Address:

Omaha, Nebraska 68102-1214 Est. 1923 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850 Nos. 19-1231, 19-1241

FEDERAL COMMUNICATIONS COMMISSION, ET AL.,
Petitioners,

Vv.
PROMETHEUS RADIO PROJECT, ET AL.,
Respondents.
NATIONAL ASSOCIATION OF BROADCASTERS, ET AL.,
Petitioners,

v.
PROMETHEUS RADIO PROJECT, ET AL.,
Respondents.

AFFIDAVIT OF SERVICE
I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 21st day of July, 2020, send out

from Omaha, NE 4 package(s) containing 3 copies of the BRIEF IN OPPOSITION in the above entitled case. All parties
required to be served have been served by Priority Mail. Packages were plainly addressed to the following:

SEE ATTACHED
To be filed for:
Cheryl A. Leanza Ruthanne M. Deutsch
BEST BEST & Counsel of Record
KRIEGER LLP Hyland Hunt
2000 Penn. Ave. NW DEUTSCH HUNT PLLC
Suite 530 300 New Jersey Ave. NW Suite 900
Washington, DC 20006 Washington, DC 20001

(202) 868-6915
tdeutsch@deutschhunt.com

Counsel for Prometheus Radio Project,

Movement Alliance Project (f/k/a Media
Mobilizing Project), Common Cause,
NABET-CWA, Free Press, and Office of
Communication, Inc. of the United Church of Christ

Subscribed and sworn to before me this 2 Ist day of July, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

A GENERAL NOTARY-State of Nebraska
RENEE J. GOSS 9 .
My Comm. Exp. September &, 2023

Notary Public

Oude. Gh le

Affiant

 
SERVICE LIST

Jeffrey B. Wall
Counsel of Record
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov
Counsel for Federal Communications Commission, et al.

Helgi C. Walker
Counsel of Record
Gibson, Dunn & Crutcher LLP
1050 Connecticut Avenue, NW
Washington, DC 20036
(202) 887-3599
hwalker@gibsondunn.com
Counsel for National Association of Broadcasters, et al.

Dennis Lane

David D’ Alessandro

Stinson Leonard Street

1775 Pennsylvania Avenue, NW
Suite 800

Washington, DC 20006

(202) 785-9100
david.dalessandro@stinson.com
dlane@stinson.com

Counsel for MMTC and Internet Council and National Association of Black Owned
Broadcasters

Jack N. Goodman

Law Offices of Jack N. Goodman

1200 New Hampshire Avenue, NW

Suite 600

Washington DC 20036

(202) 776-2045

jack@jackngoodman.com

Counsel for Independent Television Group
